Department of Homeland Security
   Ofﬁce of Inspector General
            DHS Controls Over Firearms 





OIG-10-41                                  January 2010
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      January 25, 2010

                                         Preface

The Department of Homeland Security Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the efficacy of the Department of Homeland Security’s
management and oversight of its components to ensure that personnel are sufficiently
safeguarding and controlling firearms. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1

Background ..........................................................................................................................2

Results of Audit ...................................................................................................................5

           Safeguarding Firearms .............................................................................................6 

           Reporting Lost Firearms ........................................................................................10 

           Accounting Inventory Control ...............................................................................11 

Actions Taken by CBP and ICE ........................................................................................13 

Conclusion .........................................................................................................................14

Recommendations..............................................................................................................14

Management Comments and OIG Analysis ......................................................................15 


Appendices
     Appendix A:          Purpose, Scope, and Methodology........................................................17 

     Appendix B:          Management Comments to Draft Report ..............................................18 

     Appendix C:          Reporting Lost Firearms Policies and Procedures ................................21 

     Appendix D:          Major Contributors to this Report .........................................................22 

     Appendix E:          Report Distribution ................................................................................23 


Acronyms and Abbreviations
     CBP                 Customs and Border Protection 

     DHS                 Department of Homeland Security 

     FACTS               Firearms, Armor, and Credentials Tracking System 

     FMFIA               Federal Managers’ Financial Integrity Act 

     GAO                 Government Accountability Office 

     ICE                 Immigration and Customs Enforcement 

     OCAO                Office of the Chief Administrative Officer 

     TSA                 Transportation Security Administration       

     USCG                United States Coast Guard 

     USSS                United States Secret Service 





                                                 DHS Controls Over Firearms
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                The Department of Homeland Security’s mission includes law
                enforcement elements, which require the department, through its
                components, to manage various types of firearms. Our audit
                objective was to determine the efficacy of the Department of
                Homeland Security’s management and oversight of its components
                to ensure that personnel were sufficiently safeguarding and
                controlling firearms.

                The Department of Homeland Security, through its components,
                did not adequately safeguard and control its firearms. Components
                reported 289 firearms as lost during FYs 2006 through 2008.
                Although some reported losses were beyond the officers’ control,
                most losses occurred because officers did not properly secure
                firearms. The department did not have a specific firearm policy
                and instead relied on the components to establish specific policies
                and procedures for managing, safeguarding, and controlling
                firearms. While some component policies were sufficient,
                personnel did not always follow them and the department did not
                require that independent third parties perform firearm inventories.
                Field offices did not always promptly report lost firearms to
                component headquarters or keep inventory records updated. Lost
                firearms pose serious risks to the public and law enforcement
                officers.

                Based on the results of our audit we are making two
                recommendations to the department to improve controls over
                firearms. The Department of Homeland Security’s Management
                Directorate and Office of the Chief Administrative Officer
                concurred with the recommendations. The components we
                reviewed in detail are already taking actions to correct the issues
                we identified.




                           DHS Controls Over Firearms 


                                     Page 1

Background
                          Between 2003 and 2007, the Government Accountability Office
                          (GAO) and the Department of Justice Office of Inspector General
                          assessed controls over firearms at 18 federal law enforcement
                          agencies. The reports showed that these agencies faced similar
                          challenges in safeguarding and controlling firearms and suffered
                          losses of firearms under similar circumstances as the Department
                          of Homeland Security (DHS). In some cases, DHS losses were
                          fewer than other agencies, indicating that DHS may have stronger
                          controls over its firearms.

                          To support its law enforcement mission DHS had over 188,548
                          firearms in its inventory as of July 2009. The components with
                          firearms include:

                                   �	 Customs and Border Protection (CBP);
                                   �	 Federal Emergency Management Administration
                                      (FEMA);
                                   �	 Federal Law Enforcement Training Center (FLETC);
                                   �	 Immigration and Customs Enforcement (ICE);
                                   �	 Science and Technology Directorate1 (S&T);
                                   �	 Transportation Security Administration (TSA);
                                   �	 United States Coast Guard (USCG); and
                                   �	 United States Secret Service (USSS).

                          Table 1 illustrates component inventories and table 2 illustrates the
                          types of firearms carried by DHS law enforcement officers.




1
  The Science and Technology Directorate uses firearms solely in association with the testing mission of
the Transportation Security Laboratory and does not issue side-arms to individuals.


                                       DHS Controls Over Firearms

                                                  Page 2
                              Table 1: DHS Component Inventories as of July 20092
    100,000    88,110


     90,000

     80,000

     70,000

     60,000
                        45,114

     50,000
                                   34,273

     40,000

     30,000

                                             10,745
     20,000                                             9,104

     10,000                                                      734      468

          0
              CBP       ICE      USCG        USSS     FLETC     FEMA      S&T




                          Table 2: Types of Weapons in Component Inventories
                    Handguns




                                                                 Image courtesy of CBP


                    Semiautomatic / Automatic Weapons (M-4 Rifles)




                                                                 Image courtesy of Colt Defense LLC


                    Shotguns



                                                                 Image courtesy of Remington




2
  We did not include the number of firearms in TSA’s inventory because this information is protected as
Sensitive Security Information under 49 CFR 1520.5(b)(8)(ii). We also did not list the total number of
firearms in DHS’ inventory to protect TSA’s Sensitive Security Information.


                                            DHS Controls Over Firearms

                                                      Page 3
The Use of Force Policy Division at CBP and the National
Firearms and Tactical Training Unit at ICE oversee their respective
component firearms programs. CBP and ICE used the Firearms,
Armor, and Credentials Tracking System (FACTS) to manage
firearm inventories. CBP transferred its inventory data from the
Firearms Inventory Tracking System to FACTS in April 2009.
FACTS maintains information relating to individual firearms, such
as the serial number, location, date of last inventory, assigned
officer, and officer qualification scores.

In 1982, Congress established the Federal Managers’ Financial
Integrity Act (FMFIA) requiring executive agencies to establish
and maintain controls that provide reasonable assurance that
federal entities safeguard assets against waste, loss, unauthorized
use, and misappropriation. The act also mandates that GAO’s
internal control standards serve as the framework for agencies to
use in establishing and maintaining internal control systems. GAO
internal control standards provide that in establishing internal
controls, agencies should assess the risks associated with asset
losses and establish control activities to help ensure those risks are
addressed.

In addition to the FMFIA and GAO internal control standards, two
other organizations issued advisory criteria addressing inventory
controls. In June 1995, the Joint Financial Management
Improvement Program addressed management’s responsibility to
provide guidelines for developing, documenting, and implementing
physical controls to safeguard and provide accountability for
inventory items. In August 1983, the Commission on
Accreditation for Law Enforcement Agencies, Inc., an independent
accrediting authority for law enforcement agencies, published
accreditation standards that include procedures for inventory and
property control. These inventory control requirements apply to
sensitive property, such as firearms, to limit accessibility to
authorized individuals and ensure accountability.

DHS Management Directive 0565, DHS Personal Property
Management, provides a general description of controls for
managing property and does not include controls over sensitive
items, such as firearms.

We assessed the efficacy of DHS’ management and oversight of its
components to ensure that personnel were sufficiently
safeguarding and controlling firearms. During our audit, we tested
the accuracy of inventory records for 1,528 firearms, observed


           DHS Controls Over Firearms

                     Page 4
                           firearm storage procedures, and reviewed inventory policies and
                           procedures at 6 CBP and 10 ICE field offices.



Results of Audit
                           The department’s management and oversight of component
                           safeguards and controls over firearms were not effective. A key
                           reason that firearm controls were not sufficient was because DHS
                           did not have specific firearms policies and procedures in place.
                           Instead, DHS relied on its components to augment its general
                           property management policies and procedures with specific
                           guidance for safeguarding and controlling firearms. Although
                           some component policies and procedures for safeguarding firearms
                           were sufficient, personnel did not always follow them. Component
                           personnel did not always sufficiently safeguard their firearms and,
                           as a result, lost3 a significant number of firearms between FY 2006
                           and FY 2008. Most of the losses occurred because law
                           enforcement officers did not sufficiently secure firearms in their
                           possession. The lost firearms created unnecessary risk to the
                           public and law enforcement personnel; in some cases state and
                           local law enforcement officials recovered lost DHS firearms from
                           felons and gang members.

                           In addition, the department did not require independent third
                           parties to perform annual firearm inventories, component field
                           offices did not always promptly report lost and stolen firearms to
                           component headquarters, and field offices did not keep inventory
                           records updated. As a result, DHS could not ensure that
                           components safeguarded and controlled firearms, or provided
                           accountability over firearms.

                           During our audit, CBP and ICE initiated changes to their
                           management and oversight of firearms to correct deficiencies we
                           identified during this audit. Both components are reviewing or
                           strengthening policy and procedures for safeguarding firearms and
                           reporting lost firearms.




3
 Lost firearms are those no longer in the possession of the components; they include firearms that were lost
or stolen.


                                       DHS Controls Over Firearms

                                                  Page 5
    Safeguarding Firearms 

                           The department, through its components, did not adequately
                           safeguard and control firearms. During FYs 2006 through 2008,
                           DHS components reported 289 handguns, M-4 rifles, and shotguns
                           as lost. CBP and ICE reported 243 (84%) of the 289 lost firearms.
                           The remaining 46 lost firearms (16%) were reported by USCG (9),
                           TSA (22), and USSS (15)4.

                           When a law enforcement officer determines that a firearm is
                           missing, CBP and ICE policies require that the officer send a
                           memorandum reporting the loss, and a description of the situation
                           surrounding that loss, to the supervisor. The supervisor forwards
                           the notification of loss to the respective component headquarters
                           personnel, who create a case file for the lost firearm. We reviewed
                           243 case files for firearms reported lost by CBP and ICE. For each
                           case file, we determined the reason for the reported loss and
                           evaluated those circumstances against the respective component’s
                           policies and procedures.

                           Lost Firearms
                           CBP and ICE reported 243 lost firearms during FYs 2006 through
                           2008. According to our analysis:

                               �	 36 firearms (15%) were lost due to circumstances beyond
                                  the control of the officers. For example, CBP lost firearms
                                  when Hurricane Katrina made landfall and ICE lost a
                                  firearm during an assault on an officer.
                               �	 28 firearms (about 11%) were lost even though officers
                                  stored them in lockboxes or safes.
                               �	 179 firearms (74%) were lost because officers did not
                                  properly secure them.

                           Of the 179 firearms, CBP and ICE reported 59 (33%) firearms as
                           lost and 120 (67%) firearms as stolen. Since the components’
                           guidance did not provide a standard methodology for classifying
                           and reporting lost firearms, officers tended to report a firearm as
                           stolen rather than lost. This was due to a common perception
                           among officers that reporting a stolen firearm was more acceptable


4
  According to Secret Service officials, 3 of the 15 firearms reported as lost or stolen between 2006 and
2008 were actually lost in the 2001 attack on the World Trade Center. The loss of these firearms was
reported in 2008.


                                        DHS Controls Over Firearms

                                                   Page 6
than reporting a lost firearm. Although CBP and ICE reported 120
firearms as stolen, our analysis showed that these firearms were
lost (stolen) because officers left the firearms unsecured. All 179
losses may have been prevented had the officers properly
safeguarded their firearms. For example, an officer left his firearm
in the restroom of a fast food restaurant, and when he returned to
retrieve it, it was gone. The case file listed this firearm as stolen;
however, we believe that the firearm would not have been stolen
had the officer exercised due diligence in safeguarding the firearm.

The following examples further demonstrate the inappropriate
practices some officers used to store firearms in vehicles and
residences:

   �	 A CBP officer left a firearm unsecured in an idling vehicle
      in the parking lot of a convenience store. The vehicle and
      firearm were stolen while the officer was inside the store.
      A local law enforcement officer later recovered the firearm
      from a suspected gang member and drug smuggler.
   �	 A CBP officer left a firearm on a toolbox in the bed of a
      truck, and the firearm fell off when the officer drove home.
      Law enforcement officials later recovered the firearm from
      an individual who resisted arrest and assaulted the arresting
      officer.
   �	 An ICE officer left an M-4 rifle and a shotgun unsecured in
      a closet in his home; subsequently, both firearms were
      stolen during a burglary. State and federal law enforcement
      officers later recovered these firearms from a felon.
   �	 An ICE officer left a firearm on the bumper of a vehicle,
      which fell off as the officer left his place of employment.
      A civilian found the firearm and turned it over to the local
      police.

Other CBP and ICE officers left firearms in places such as a fast
food restaurant parking lot, a bowling alley, and a clothing store.
Although our review focused on CBP and ICE, other components
described similar incidents. For example, a TSA officer left a
firearm in a lunch box on the front seat of an unlocked vehicle; the
officer realized the firearm was stolen when he returned to the
vehicle 2 days later. Officers may have prevented many of these
losses had they exercised reasonable care when storing their
firearms.




           DHS Controls Over Firearms

                     Page 7
CBP and ICE officers lost 28 firearms even though they secured
the firearms in lockboxes or safes. The components may have
prevented these losses through more stringent policies and
procedures. CBP policies and procedures for leaving a firearm in
an unattended vehicle are inadequate and do not include
requirements to secure the firearm to the vehicle. Although ICE
policies and procedures for storing firearms in vehicles are more
stringent, requiring officers to secure them to the vehicle with an
ICE-approved safety-locking device, ICE does not require that its
staff permanently secure the locking device to the vehicle. While
using a safety-locking device is a good practice, the best way to
protect firearms from theft is to store them in lockboxes properly
mounted as recommended in the manufacturers’ guidelines.

Storing Firearms at Field Offices
Law enforcement officers at field offices did not always use the
locking devices provided by CBP and ICE to store their firearms in
vehicles. We observed firearm storage procedures and verified
1,528 firearm serial numbers at 6 CBP and 10 ICE field offices.
Officers stored 152 of the 1,528 firearms we examined in vehicles.
Of the 152 firearms stored in vehicles, 58 (38%), were unsecured.
CBP and ICE provided most officers with lockboxes and a locking
cable to secure their firearms. However, in these 58 cases, the
officers did not use the locking devices. In addition to the locking
devices, some ICE facilities provided officers access to lockers to
secure their firearms during working hours, as shown below:




      Lockers provided for ICE officers to secure firearms – DHS-OIG Photo


Even though the officers had securing devices and access to these
lockers, some officers chose to leave their firearms unsecured in
their vehicles. The following examples and photos illustrate how


          DHS Controls Over Firearms

                    Page 8
                             some officers stored firearms in vehicles5:

                                  �	 An ICE officer stored the keys for his assigned
                                     government-owned vehicle next to a windshield wiper
                                     blade. We observed the officer retrieve the keys, unlock
                                     the trunk, and reveal an unsecured firearm, body armor, and
                                     radio equipment. After our verification of the firearm serial
                                     number, the officer returned the keys to the windshield
                                     wiper blade.




                          Keys to government- issued vehicle stored next to windshield wiper – DHS-OIG Photo

                                  �	 CBP and ICE firearms instructors left firearms unsecured in
                                     vehicles. The firearms were stored in bags that were
                                     visible from the windows of the vehicles and not secured to
                                     the vehicles.
                                  �	 Other CBP and ICE officers stored firearms in glove
                                     compartments and center consoles, under seats, and in
                                     various types of bags.


                                                                                   Firearm unsecured in
                                                                                   duty belt in an
                                                                                   officer’s vehicle
                                                                                    – DHS-OIG Photo




5
    We notified local supervisors of these issues as we identified them.


                                          DHS Controls Over Firearms

                                                      Page 9
                          Recovered Firearms

                          According to CBP and ICE case files, 65 (27%) of the 243 lost
                          firearms were recovered; of the 65 recovered firearms, 50 (77%)
                          were recovered by the components or civilian organizations, and
                          15 (23%) were recovered by other law enforcement organizations.
                          Although lost firearms account for a minor percentage of DHS’
                          total firearms inventory, they pose serious risks to civilians and
                          non-civilians alike. Local law enforcement organizations
                          recovered 15 DHS firearms from felons, gang members, criminals,
                          drug users, and teenagers. For example, law enforcement officers:

                               �	 Recovered a firearm from a suspected gang member. The
                                  suspect was driving a recreational vehicle with modified
                                  hidden compartments that had trace evidence of illegal
                                  drugs.


                                                                                    Firearm recovered
                                                                                    with gang symbol
                                                                                    etched on the barrel.

                                                                                    — Photo courtesy of
                                                                                    the Lake City Police
                                                                                    Department




                               �	 Recovered a lost firearm from an individual who was in
                                  possession of cocaine.
                               �	 Recovered a firearm from a drug dealer while executing a
                                  narcotics search warrant.


        Reporting Lost Firearms
                          Although officers immediately reported the lost firearms to their
                          supervisors and the National Crime Information Center6 as
                          required, officers did not always report lost firearms to the
                          component headquarters in a timely manner. In some cases, it took
                          nearly 3 years to report the loss to the component headquarters.
                          According to the case files, CBP and ICE staff took an average of


6
 The National Crime Information Center is a computerized database for ready access by law enforcement
agencies to assist in apprehending fugitives, locating missing persons, locating and returning stolen
property, and protecting the law enforcement officers encountering the individuals described in the system.


                                       DHS Controls Over Firearms

                                                  Page 10
         about 2 months and 4 months, respectively, to report lost firearms
         to component headquarters, ranging from the day of loss to nearly
         3 years after the loss. The reporting delays were due to incomplete
         reporting policies and procedures.

         CBP and ICE have incomplete requirements for reporting lost and
         stolen firearms. Both of their policies and procedures state that
         when a firearm is lost or stolen the officer must report the loss or
         theft immediately or as soon as practicable to a supervisor.
         However, beyond the initial reporting, some critical reporting
         requirements are not stated. For example, CBP and ICE policies
         and procedures do not state the timeframes for reporting lost
         firearms to the National Crime Information Center. (See Appendix
         C for the table illustrating the incomplete reporting requirements.)

         In addition, CBP operates under three inconsistent policies: the
         former Customs policy, the former Immigration and Naturalization
         Service policy, and the current ICE policy (only one CBP division
         follows the current ICE policy). Although ICE has only one
         policy, it does not address all the critical reporting requirements.
         Without consistent reporting requirements, the components and
         department cannot maintain visibility over firearms inventories.


Accounting Inventory Control
         Independent third parties do not conduct annual firearms
         inventories at CBP and ICE. In addition, component personnel did
         not always enter some acceptances and transfers into the inventory
         system promptly. CBP and ICE rely on law enforcement
         personnel and their supervisors to conduct inventories. The delays
         in acceptances and transfers occurred because CBP and ICE do not
         have policies and procedures addressing the timelines for these
         actions. As a result, the inventories were not always accurate or
         updated.

         Annual Inventory

         Independent third parties do not conduct annual inventories of
         firearms at CBP and ICE. CBP and ICE guidance does require that
         field office personnel conduct annual inventories to ensure the
         completeness and accuracy of the firearms inventory information
         within the inventory system. The policy requires personnel to
         complete an annual inventory over a 30-day period. The officer
         assigned the firearm is responsible for verifying the serial number


                   DHS Controls Over Firearms

                            Page 11
                             and other pertinent information, and entering the data into FACTS.
                             Subsequently, the officer’s supervisor is responsible for ensuring
                             that the officer appropriately inventoried the correct firearm
                             through visual inspection of the officer’s firearm and verification
                             of the information entered into FACTS. We identified six cases of
                             lost firearms where supervisors did not perform a visual
                             inspection; however, they still verified the firearm within the
                             inventory system over several years.7 The following history of one
                             of these six lost CBP firearms illustrates this annual inventory
                             control weakness:

                                  �	 September 2004 – An officer’s firearm was stolen from his
                                     vehicle but the loss was not recorded in the FACTS
                                     inventory system.
                                  �	 August 2005 – Another officer recorded in FACTS that the
                                     stolen firearm was in his possession.
                                  �	 September 2005 – This officer’s supervisor affirmed
                                     information about this firearm in FACTS.
                                  �	 December 2006 – A third officer entered the firearm
                                     information into FACTS (as if it were not lost).
                                  �	 December 2006 – This officer’s supervisor affirmed the
                                     firearm information in FACTS.
                                  �	 August 2007 – The third officer again entered firearm
                                     information into FACTS (as if it were not lost) as part of
                                     the annual inventory process.
                                  �	 September 2007 – Supervisor verified this firearm
                                     information in FACTS.

                             As of 2009, CBP and ICE require supervisors to affirm, within the
                             inventory system, that they visually verified the serial numbers of
                             officers’ firearms during the annual inventory. Although this is a
                             reasonable control, affirmations do not replace inventories
                             performed by independent third parties.

                             Acceptances and Transfers

                             Component personnel did not always promptly update acceptances
                             of firearms and transfers of officers’ firearms in the inventory
                             system. Component policies and procedures do not address the


7
    We referred these six cases to the CBP Office of Internal Affairs for further review.


                                          DHS Controls Over Firearms

                                                     Page 12
             timely inputting of acceptances and transfers. Acceptances occur
             to document the receipt of new firearms. Transfers occur to
             document a change in an officer’s duty station or a change in status
             of an issued firearm. As a result, the components did not always
             maintain up-to-date inventory records, which reduced
             accountability in the management of firearms.

             Our review of CBP and ICE resulted in 29 inventory control
             inaccuracies (22 at CBP and 7 at ICE). For example:

                �	 A CBP facility did not include three firearms issued to the
                   facility in their inventory system. CBP updated the
                   inventory when we pointed out the discrepancy.
                �	 An ICE officer transferred from one office to another but
                   the officer’s information, including inventory data for his
                   firearm, did not transfer to the new inventory records for
                   several weeks. ICE updated the inventory records when we
                   pointed out the discrepancy.



Actions Taken by CBP and ICE
             CBP is developing and implementing changes in its management
             and oversight of firearms to improve firearms accountability and to
             correct deficiencies identified during our audit. To correct the
             deficiencies, CBP initiated the following actions:

                �	 Transitioned to a web-based firearms accountability system
                   in April 2009.
                �	 Created a monthly review process of lost firearms to
                   improve its oversight and accountability.
                �	 Developed a unified Use of Force Policy, which is
                   currently in the staffing and approval process.
                �	 Reviewed policies and procedures regarding the
                   safeguarding and controlling of firearms in vehicles to
                   determine if they are sufficient.
                �	 Utilized the CBPnet to remind law enforcement personnel
                   of the reporting requirements for lost, stolen, or missing
                   firearms.
                �	 Developed a presentation that addresses the proper methods
                   for safeguarding and controlling firearms, which CBP plans
                   to use annually.




                       DHS Controls Over Firearms

                                Page 13
             ICE initiated changes in its management and oversight of firearms
             to correct deficiencies identified during our audit. To correct the
             deficiencies, ICE initiated the following actions:

                �	 Developed methods to promote firearms security awareness
                   through policy and procedure clarifications, and posters to
                   reinforce firearms storage requirements.
                �	 Drafted a memorandum to remind all ICE program office
                   directors of their responsibility to ensure that armed
                   personnel safeguard all issued or approved personally
                   owned firearms in accordance with ICE policies and
                   procedures.
                �	 Drafted a second memorandum to provide supplementary
                   guidance regarding the processes officers should use to
                   report lost and stolen firearms and the required
                   documentation for transfer and receipt of firearms.
                �	 Recommended that its Office of Professional
                   Responsibility Management Inspection Unit expand the
                   scope of their firearms field audits to include a review of
                   the individual officers’ storage practices.

Conclusion
             The prescribed guidance for DHS and the augmented guidance
             developed by the components are incomplete and inconsistent to
             ensure that firearms are protected against loss and unauthorized
             use. By developing standard policies and procedures, DHS could
             reduce the number of lost firearms and improve its accountability
             over its firearm inventory.

Recommendations
             We recommend that the Undersecretary for Management:

             Recommendation #1: Develop department-wide policies and
             procedures for safeguarding and controlling firearms. At a
             minimum, these policies and procedures should include:

                a.	 Requirements for properly securing firearms, including a
                    requirement to use properly mounted lockboxes.
                b.	 Timelines for recording acceptances and transfers in the
                    inventory system.
                c.	 Requirements for reporting lost firearms, including
                    classification of lost versus stolen, and timelines for

                       DHS Controls Over Firearms

                                Page 14
                    reporting lost firearms to supervisors, local law
                    enforcement, the National Crime Information Center, and
                    component headquarters.
                d.	 Inventory procedures that include having an independent
                    third party observe annual inventories.


             Recommendation #2: Assess firearm security equipment needs
             for each officer assigned a firearm, issue security equipment as
             needed, and reaffirm to each officer the requirement to always
             properly secure firearms.


Management Comments and OIG Analysis
             DHS provided comments to our draft report, concurring with both
             recommendations. Below is a summary of the written response
             from DHS and our analysis of the response. A copy of the
             Undersecretary of Management’s response, in its entirety, appears
             in Appendix B.

             DHS Response to Recommendation #1: The Undersecretary of
             Management concurred with our recommendation and said that the
             Office of the Chief Administrative Officer (OCAO) has begun a
             complete revision of the DHS Property Management policy
             directive. Key controls addressed within the DHS Property
             Management policy directive will include the proper storage of
             weapons; recording and updating firearms inventory; classification
             of lost and stolen, and timeliness for reporting lost or stolen
             firearms; and proper inventory procedures.

             OIG Evaluation: This recommendation is resolved, but remains
             open pending confirmation that the DHS implemented these key
             controls and that the key controls address the recommendation.
             Developing effective policies and procedures will assist in
             mitigating the risk of lost firearms.

             DHS Response to Recommendation #2: DHS concurred with
             our recommendation. The OCAO will review the component’s
             requirements for firearm security equipment and collaborate with
             them to determine the effectiveness of their current equipment. In
             addition, the OCAO will require that all components conduct
             annual firearm security requirements awareness training.




                       DHS Controls Over Firearms

                                Page 15
OIG Evaluation: This recommendation is resolved, but remains
open pending confirmation that DHS implemented these policies
and procedures and that the policies and procedures appropriately
address the recommendation. Developing effective policies and
procedures will assist in mitigating risks associated with
maintaining security over firearms.




          DHS Controls Over Firearms

                   Page 16
Appendix A
Purpose, Scope, and Methodology

                   This report provides the results of our work to determine the
                   efficacy of DHS management and oversight of component
                   safeguards and controls over firearms. To achieve our objectives
                   we:
                      �	 Interviewed DHS officials regarding management of
                         personal property, specifically firearms, and the related
                         policies and procedures for DHS and the components;
                      �	 Reviewed DHS organizational charts, and manuals for
                         tracking systems and firearms inventories;
                      �	 Reviewed case files and data for the components’ lost
                         firearms from FYs 2006 through 2008;
                      �	 Contacted law enforcement agencies and the Federal
                         Bureau of Investigation to obtain information regarding the
                         circumstances surrounding the recovery of lost firearms;
                      �	 Interviewed officers, observed the storage of firearms, and
                         physically verified that serial numbers and the make and
                         model of the officers’ firearms matched the inventory
                         listing provided to us by CBP and ICE;
                      �	 Conducted fieldwork at 16 CBP and ICE locations, verified
                         the serial numbers for 1,528 issued firearms, and observed
                         storage practices for 152 firearms;
                      �	 Reviewed prior audit reports regarding DHS, the
                         components, and other federal agencies that have armed
                         law enforcement officers; and
                      �	 Assessed the reliability and validity of data provided by the
                         components by performing a physical verification of
                         inventory data and comparing relevant data from multiple
                         sources.

                   We conducted our audit between February and July 2009 under the
                   authority of the Inspector General Act of 1978, as amended, and
                   according to generally accepted government auditing standards.
                   Those standards require that we plan and perform the audit to
                   obtain sufficient, appropriate evidence to provide a reasonable
                   basis for our findings and conclusions based on our audit
                   objectives. We believe that the evidence obtained provides a
                   reasonable basis for our findings and conclusions based on our
                   audit objectives.




                             DHS Controls Over Firearms 


                                      Page 17

Appendix B
Management Comments to Draft Report




                          DHS Controls Over Firearms 


                                   Page 18

Appendix B
Management Comments to Draft Report




                          DHS Controls Over Firearms 


                                   Page 19 

Appendix B
Management Comments to Draft Report




                          DHS Controls Over Firearms 


                                   Page 20 

Appendix C
Reporting Lost Firearms Policies and Procedures




                                        CBP Policies                 ICE Policy
                                                Immigration and
Critical Reporting Steps   Customs Policy        Naturalization   ICE Interim Policy
                                                 Service Policy

Report lost firearm to                         As soon as
                           Immediately                            Immediately
supervisor                                     practical

                                               As soon as
Report lost firearm to
                           Not stated          possible from      Not required
local law enforcement
                                               supervisor

Report lost firearm to                                            Immediately from
                           No timeframe        Within 24 hours
component headquarters                                            supervisor

Report lost firearm to
National Crime             No timeframe        Not stated         No timeframe
Information Center

Memo prepared by
                           Not stated          Within 48 hours    Within 48 hours
employee

                                               Not stated
Report to Joint Intake
                           Not stated                             Not stated
Center (JIC)


Significant Incident
                           Not stated          Within 24 hours    Not stated
Report


Report of survey           No timeframe        No timeframe       Not stated


                                               Within 24 hours
CBP - Internal Affairs     No timeframe                           Not applicable
                                               by HQs

ICE - Office of                                                   As soon as
Professional               Not applicable      Not applicable     practicable from
Responsibility                                                    supervisor




                               DHS Controls Over Firearms 


                                         Page 21

Appendix D
Major Contributors to this Report


                    Linda Howard, Director
                    Sean Pettersen, Audit Manager
                    David DeHaven, Auditor-in-Charge
                    Lindsay Cabral, Auditor
                    Brian Blaha, Auditor
                    Victoria Phan, Program Analyst
                    Kevin King, Program Analyst
                    Joseph Faulk, Program Analyst
                    Lisa Vonder Haar, Desk Officer




                             DHS Controls Over Firearms 


                                      Page 22

Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary, Management
                      DHS Audit Liaison
                      Acting Commissioner, CBP
                      CBP Audit Liaison
                      Assistant Secretary, ICE
                      ICE Audit Liaison
                      Acting Administrator, TSA
                      TSA Audit Liaison
                      Administrator, FEMA
                      FEMA Audit Liaison
                      Director, FLETC
                      FLETC Audit Liaison
                      Commandant, USCG
                      USCG Audit Liaison
                      Director, USSS
                      USSS Audit Liaison
                      Acting Under Secretary, S&T
                      S&T Audit Liaison
                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner
                      Congress
                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                 DHS Controls Over Firearms 


                                          Page 23 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
